No.
IN THE SUPREME COURT OF THE UNITED STATES

RACHEL J. EVENS - Petitioner
Vs.

TIMOTHY J. EVENS - Respondent

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Rachel Evens, a pro-se litigant, certify the
petition for a writ of certiorari contains 6,824 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d). I did include verbatim quotes in this
word count. 1 pray the formatting is correct as I couldn't find an example to follow.
I declare under penalty of perjury the foregoing is true and correct.

Rachel J. Evens -pro se litigant
P.O. Box 273
Florence, MT 59833

mm.

34

ELIZABETH A. JONES
NOTARY PUBLIC for the
State of Montana
Residing at >U'^nsville, Montana
My Commission Expires
September 13, 2020

